November 4, 1999

ALLEN R. KANE
CHIEF MARKETING OFFICER AND
 SENIOR VICE PRESIDENT

SUBJECT: Point of Service ONE - Vendor Solution
         (Report Number DA-LA-00-001)

In 1996, the Postal Service awarded the Point of Service
ONE contract to two vendors to design, develop, deploy,
and maintain the Postal Service’s new Point of Service ONE
system. This decision was made to limit the Postal
Service's risk in developing and deploying the Point of
Service ONE system and increase competition. Recently,
the Point of Service ONE Vice President Oversight
Committee decided that the risk of going to one vendor was
low and offset by the potential cost savings over the life of
the program. The Point of Service ONE Program Office
developed a business assessment process and cost model
to evaluate the two vendors.

On September 30, 1999, we submitted a letter identifying
several issues concerning the decision to move to one Point
of Service ONE vendor. On October 8, 1999, we met with
the Point of Service ONE Vice President Oversight
Committee to discuss our concerns. On October 14, 1999,
we received your request to:

•	 Validate the benefits as developed by the Program
   Office and
•	 Review the selection framework for the option process.

This report is in response to your request.
Point of Service ONE – Vendor Solution	                                           DA-LA-00-001



Scope and                      To accomplish your request, we reviewed the selection
Methodology                    framework documentation provided by the Point of Service
                               ONE Program Office, the transition methodology to one
                               vendor, and the model used to compare Point of Service
                               ONE costs using one vendor versus two vendors. Our
                               review included documents received as of November 3,
                               1999. In addition, we interviewed Postal Service officials
                               and Point of Service ONE consultants.

                               We performed this review in accordance with the
                               President’s Council on Integrity and Efficiency, Quality
                               Standards for Inspections. In the interest of providing you
                               with our assessment in time to assist with your decision
                               process, we did not solicit written comments on this report.
                               However, if you wish to offer comments on the report please
                               do so by November 19, 1999.

OIG Assessment                 On the basis of our review, we believe that the cost model
                               should yield a generally reasonable projection of the
                               financial impact from transitioning to one Point of Service
                               ONE vendor. However, we were unable to validate the
                               overall benefits from such a transition because of the lack of
                               supporting documentation for some cost estimates and
                               assumptions. We also noted the following concerns:

                               •	 The transition cost could not be validated due to the
                                  number of estimates in the model. The Point of Service
                                  ONE Program Office included a 10 percent contingency
                                  amount in their model but this may not be sufficient to
                                  cover unanticipated costs.

                               •	 We believe there is a risk of litigation by the losing
                                  vendor. However, the probability or amount of financial
                                  loss accruing from such litigation can not be fairly
                                  estimated.

                               We also identified no material weaknesses with the Point of
                               Service ONE selection framework. However, a detailed
                               assessment of the framework and results could not be
                               completed using the available data within the requested




                                                     2
                                          Restricted Information
Point of Service ONE – Vendor Solution	                                             DA-LA-00-001



                               timeframe. We identified some areas of concern that could
                               increase the level of risk for Postal Service. These areas
                               were:

                               •	 The subjectivity of the sub-categories in the Partnership
                                  critical capability,

                               •	 The need for additional critical capability sub-categories
                                  with an emphasis on financial accountability and
                                  customer support, and

                               •	 The exclusion of both vendors’ ability to accomplish
                                  software development projects, as measured by the
                                  Capability Maturity Model, as evaluation criteria. The
                                  Point of Service ONE Program Office stated other sub-
                                  factors and actual performance would be the evaluation
                                  criteria for software.

                               We also identified an additional risk from our review of the
                               transition plan:

                               •	 The compatibility of both vendors' hardware and
                                  software has not been fully proven. Full core
                                  functionality has not been tested for either vendor. The
                                  Point of Service ONE Program Office informed us that
                                  neither vendor was tasked to retrofit their software on
                                  the alternate vendors' hardware. However, both
                                  vendors assured them their software could be modified
                                  to support alternate hardware platforms.

                               We limited our review to the model and selection
                               framework. Accordingly, nothing in this report should be
                               construed as an endorsement for selecting either vendor for
                               the next phase of the Point of Service ONE project.

                               While a cost model and selection framework may be in
                               place, the potential for collective impact from the risks
                               identified above, is still a source of concern. As our letter of
                               September 30, 1999 indicated, officials must have adequate
                               information to make a decision that is in the best interest of
                               the Postal Service. We encourage you to carefully weigh
                               the potential risks against projected benefits prior to
                               selecting one vendor.




                                                     3
                                          Restricted Information
Point of Service ONE – Vendor Solution                                             DA-LA-00-001



                              We appreciate the cooperation and courtesies provided by
                              your staff during this time-sensitive review, and we will
                              continue to monitor the progress of the Point of Service
                              ONE program in the future. If you have any questions or
                              need additional information, please contact                 .
                                             ,              , at              , or myself at
                              (703) 248-2300.



                              Richard F. Chambers
                              Assistant Inspector General
                              for Performance

                              cc: Patricia M. Gibert
                                  John R. Gunnels




                                                    4
                                         Restricted Information
